BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in NTCH, Inc.
v. Federal Communications Commission, United States
of America, and DISH Network Corporation, was sent
via Two Day Service to the U.S. Supreme Court, and
via e-mail service to the following parties listed below,
this 23rd day of September, 2020:
Maureen K. Flood
Jacob M. Lewis
Richard K. Welch
Federal Communications Commission
445 12th Street, SW
Washington, DC 20554
maureen.flood@fcc.gov

Counsel for the Federal Communications Commission
Jeffrey H. Blum
DISH Network Corporation
1110 Vermont Avenue, NW, Suite 750
Washington, DC 20005
Jeffrey.Blum@dish.com
Bryan N. Tramont
J. Wade Lindsay
Wilkson, Barker, Knauer, LLP
1800 M Street, NW, Suite 800
Washington, DC 20036
btramont@wbklaw.com

Counsel for DISH Network Corporation

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jeffrey B. Wall
Acting Solicitor General
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for United States
Donald J. Evans
Counsel of Record
Keenan Adamchak
Fletcher, Heald & Hildreth
1300 N. 17th St., 11th Floor
Arlington, VA 22209
(703) 812-0430
evans@fbhlaw.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 23, 2020.

onna J. Wo If
rT;")
Becker Gallagher Legal'"Pufilishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

